                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

Case Number: A12110077                                                         Page 1 ofl


         We learned an NSF panelistl had been approached by several Pis whose proposals
         were reviewed by the panel on which the panelist served. The Pis accused the
         panelist of having been responsible for the declination of their proposals. We
         contacted the Program Officers who oversaw the panel, and one of them told us he
         suspected who had violated the confidentiality of NSF's merit review, but he did not
         have any evidence. We contacted the panelist, but he would not disclose who had
         accosted him because he was afraid of reprisals from senior members of his
         community. Thus, we have insufficient information to further investigate this
         matter. Accordingly, this case is closed with no further action taken.




             1-
NSF OIG Form 2 (11/02)
